<html>
<title> - NEXT STEPS FOR WELFARE REFORM: IDEAS TO IMPROVE TEMPORARY ASSISTANCE FOR NEEDY FAMILIES TO HELP MORE FAMILIES FIND WORK AND ESCAPE POVERTY</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]








 NEXT STEPS FOR WELFARE REFORM: IDEAS TO IMPROVE TEMPORARY ASSISTANCE 
 FOR NEEDY FAMILIES TO HELP MORE FAMILIES FIND WORK AND ESCAPE POVERTY

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON HUMAN RESOURCES

                                 of the

                      COMMITTEE ON WAYS AND MEANS
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 30, 2015

                               __________

                          Serial No. 114-HR03

                               __________

         Printed for the use of the Committee on Ways and Means



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







                         U.S. GOVERNMENT PUBLISHING OFFICE 

21-283                         WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001

























                      COMMITTEE ON WAYS AND MEANS

                     PAUL RYAN, Wisconsin, Chairman

SAM JOHNSON, Texas                   SANDER M. LEVIN, Michigan
KEVIN BRADY, Texas                   CHARLES B. RANGEL, New York
DEVIN NUNES, California              JIM MCDERMOTT, Washington
PATRICK J. TIBERI, Ohio              JOHN LEWIS, Georgia
DAVID G. REICHERT, Washington        RICHARD E. NEAL, Massachusetts
CHARLES W. BOUSTANY, JR., Louisiana  XAVIER BECERRA, California
PETER J. ROSKAM, Illinois            LLOYD DOGGETT, Texas
TOM PRICE, Georgia                   MIKE THOMPSON, California
VERN BUCHANAN, Florida               JOHN B. LARSON, Connecticut
ADRIAN SMITH, Nebraska               EARL BLUMENAUER, Oregon
LYNN JENKINS, Kansas                 RON KIND, Wisconsin
ERIK PAULSEN, Minnesota              BILL PASCRELL, JR., New Jersey
KENNY MARCHANT, Texas                JOSEPH CROWLEY, New York
DIANE BLACK, Tennessee               DANNY DAVIS, Illinois
TOM REED, New York                   LINDA SANCHEZ, California
TODD YOUNG, Indiana
MIKE KELLY, Pennsylvania
JIM RENACCI, Ohio
PAT MEEHAN, Pennsylvania
KRISTI NOEM, South Dakota
GEORGE HOLDING, North Carolina
JASON SMITH, Missouri
ROBERT J. DOLD, Illinois

                       Joyce Myer, Staff Director

         Janice Mays, Minority Chief Counsel and Staff Director

                                 ______

                    SUBCOMMITTEE ON HUMAN RESOURCES

             CHARLES W. BOUSTANY, JR., Louisiana, Chairman

TODD YOUNG, Indiana                  LLOYD DOGGETT, Texas
KRISTI NOEM, South Dakota            JOHN LEWIS, Georgia
PAT MEEHAN, Pennsylvania             JOSEPH CROWLEY, New York
GEORGE HOLDING, North Carolina       DANNY DAVIS, Illinois
JASON SMITH, Missouri
ROBERT J. DOLD, Illinois






















                            C O N T E N T S

                               __________

                                                                   Page

Advisory of April 30, 2015 announcing the hearing................     2

                               WITNESSES

Eloise Anderson, Secretary, Wisconsin Department of Children and 
  Families, and Co-Chair, Secretaries' Innovation Group..........    23
Peter Cove, Founder, America Works of New York, Incorporated.....     6
LaDonna Pavetti, Ph.D., Vice President for Family Income Support 
  Policy, Center on Budget and Policy Priorities.................    47
Heather Reynolds, President and CEO, Catholic Charities Fort 
  Worth..........................................................    30
Sherrie Smoot, Former America Works Client.......................    18
Tracy Wareing, Executive Director, American Public Human Services 
  Association....................................................    38

                       SUBMISSIONS FOR THE RECORD

Elizabeth Lower-Basch, Center for Law and Social Policy (CLASP)..    81
County Welfare Directors Association of California (CWDA)........    91
Peter Germanis...................................................    99
U.S. Government Accountability Office (GAO)......................   109
 
 NEXT STEPS FOR WELFARE REFORM: IDEAS TO IMPROVE TEMPORARY ASSISTANCE 
 FOR NEEDY FAMILIES TO HELP MORE FAMILIES FIND WORK AND ESCAPE POVERTY
                                     

                              ----------                              


                        THURSDAY, APRIL 30, 2015

             U.S. House of Representatives,
                       Committee on Ways and Means,
                           Subcommittee on Human Resources,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 3:17 p.m., in 
Room 1100, Longworth House Office Building, Hon. Charles 
Boustany [Chairman of the Subcommittee] presiding.
    [The advisory announcing the hearing follows:]

ADVISORY

FROM THE 
COMMITTEE
 ON WAYS 
AND 
MEANS

                    SUBCOMMITTEE ON HUMAN RESOURCES

                                                CONTACT: (202) 225-3625
FOR IMMEDIATE RELEASE
Thursday, April 23, 2015
No. HR-03

                 Chairman Boustany Announces Hearing on

            Next Steps for Welfare Reform: Ideas to Improve

            Temporary Assistance for Needy Families to Help

               More Families Find Work and Escape Poverty

    Today, Ways and Means Human Resources Subcommittee Chairman Charles 
Boustany (R-LA) announced that the Subcommittee will hold a hearing 
titled, ``Next Steps for Welfare Reform: Ideas to Improve Temporary 
Assistance for Needy Families to Help More Families Find Work and 
Escape Poverty.'' The hearing will take place at 3:00 p.m. on Thursday, 
April 30, in room 1100 of the Longworth House Office Building.

      
    In view of the limited time available, oral testimony at this 
hearing will be from invited witnesses only. Witnesses will include 
experts who administer the Temporary Assistance for Needy Families 
(TANF) program or who provide support to States operating the program. 
However, any individual or organization not scheduled for an oral 
appearance may submit a written statement for consideration by the 
Committee for inclusion in the printed record of the hearing.

      

BACKGROUND:

      
    In announcing the hearing, Chairman Boustany stated, ``Welfare 
reforms in the 1990s helped millions of low-income parents leave 
welfare for work. Not only did welfare caseloads drop by more than half 
as a result, but the share of families with children who were living in 
poverty fell significantly as well. Despite this progress, recent 
evidence suggests States may not be helping as many welfare recipients 
find work or prepare for work as they have in the past. In addition, 
Congress hasn't undertaken a full assessment of the program since 2006. 
It's time for Congress to review this program and develop ways to help 
more low-income families find work and escape poverty.''

      
    The TANF program is designed to end the dependence of needy 
families on government benefits by promoting work, marriage, and 
personal responsibility. Unlike its predecessor, the Aid to Families 
with Dependent Children program, which was primarily a cash welfare 
program for low-income families with children, the 1996 welfare reform 
law created TANF to fund a variety of services to help low-income 
parents get jobs and become self-sufficient. States are required to 
engage 50 percent of adults in TANF families in work activities such as 
employment, on-the-job training, job search, and vocational education.

      
    As a result of these and other reforms, in the years following the 
1996 law's passage, welfare caseloads declined significantly, 
employment among low-income families increased, and poverty declined. 
However, recent evidence suggests States are not engaging many adults 
receiving TANF in services designed to help them get jobs and move up 
the economic ladder. In recent years, States have reported zero hours 
of work--or participation in activities leading to work--for over half 
of the adults receiving TANF assistance each month. Recent reports have 
highlighted ways States have used loopholes in current law to sharply 
reduce the share of adults they must engage in work or work activities.

FOCUS OF THE HEARING:

      
    This hearing will focus on how States assist welfare recipients 
today, ways to increase State efforts to engage more recipients in work 
and activities leading to work, and how these efforts can help these 
individuals become self-sufficient, escape poverty, and move up the 
economic ladder.
      

DETAILS FOR SUBMISSION OF WRITTEN COMMENTS:

      
    Please Note: Any person(s) and/or organization(s) wishing to submit 
for the hearing record must follow the appropriate link on the hearing 
page of the Committee website and complete the informational forms. 
From the Committee homepage, http://waysandmeans.house.gov, select 
``Hearings.'' Select the hearing for which you would like to submit, 
and click on the link entitled, ``Please click here to submit a 
statement or letter for the record.'' Once you have followed the online 
instructions, submit all requested information. Attach your submission 
as a Word document, in compliance with the formatting requirements 
listed below, by May 14, 2015. Finally, please note that due to the 
change in House mail policy, the U.S. Capitol Police will refuse 
sealed-package deliveries to all House Office Buildings. For questions, 
or if you encounter technical problems, please call (202) 225-1721 or 
(202) 225-3625.
      

FORMATTING REQUIREMENTS:

      
    The Committee relies on electronic submissions for printing the 
official hearing record. As always, submissions will be included in the 
record according to the discretion of the Committee. The Committee will 
not alter the content of your submission, but we reserve the right to 
format it according to our guidelines. Any submission provided to the 
Committee by a witness, any supplementary materials submitted for the 
printed record, and any written comments in response to a request for 
written comments must conform to the guidelines listed below. Any 
submission or supplementary item not in compliance with these 
guidelines will not be printed, but will be maintained in the Committee 
files for review and use by the Committee.

      
    1. All submissions and supplementary materials must be provided in 
Word format and MUST NOT exceed a total of 10 pages, including 
attachments. Witnesses and submitters are advised that the Committee 
relies on electronic submissions for printing the official hearing 
record.

      
    2. Copies of whole documents submitted as exhibit material will not 
be accepted for printing. Instead, exhibit material should be 
referenced and quoted or paraphrased. All exhibit material not meeting 
these specifications will be maintained in the Committee files for 
review and use by the Committee.

      
    3. All submissions must include a list of all clients, persons, 
and/or organizations on whose behalf the witness appears. A 
supplemental sheet must accompany each submission listing the name, 
company, address, telephone, and fax numbers of each witness.

      
    The Committee seeks to make its facilities accessible to persons 
with disabilities. If you are in need of special accommodations, please 
call 202-225-1721 or 202-226-3411 TDD/TTY in advance of the event (four 
business days notice is requested). Questions with regard to special 
accommodation needs in general (including availability of Committee 
materials in alternative formats) may be directed to the Committee as 
noted above.

      
    Note: All Committee advisories and news releases are available 
online at http://www.waysandmeans.house.gov/.

                                 <F-dash>

    Chairman BOUSTANY. The Subcommittee will come to order. I 
want to thank our witnesses for being here today and thank 
everyone for coming to today's hearing on how we can improve 
welfare and help more families and individuals find work and 
escape poverty.
    Before we get into the meat and potatoes of the hearing, I 
want to welcome--I see he is not here yet, he is probably on 
his way over--I want to welcome the newest Member of our 
Subcommittee and the full Committee, Congressman Bob Dold. We 
had a vacancy that arose and Bob was just placed on the full 
Ways and Means Committee, and yesterday it was decided that he 
will be a Member of this Subcommittee. I look forward to 
working with Bob in the 114th Congress on these important 
issues. I think he is going to bring a lot of talent as an 
individual to this Subcommittee.
    I would also like to take this time to thank Congressman 
Tom Reed, a Member of the full Committee. He is leaving this 
Subcommittee and his talents will be missed. He has made many 
substantive contributions during his time here. Tom, I know, 
will still be very active on these issues even though he is not 
directly a part of the Subcommittee.
    So with all that, let's move on to the business at hand. We 
know that welfare reforms of the 1990s helped millions of low-
income parents go to work, move up the economic ladder. The key 
was increasing work and work opportunities.
    After work-based welfare reform, employment by single 
mothers who head households, the most likely to go on welfare, 
rose sharply. That increased work and earnings caused poverty 
and dependence on welfare checks to fall substantially for key 
groups. Poverty among African American households with children 
reached record lows; poverty among female head of households 
with children remains lower today than before 1996, despite two 
recessions.
    Now, while that story is positive, it is not enough. Recent 
years have seen troubling trends, especially on whether State 
welfare programs are doing enough to engage adults in work. For 
instance, according to HHS, States recorded that in 2011 a full 
55 percent of adults on welfare did zero hours of work or other 
activity while collecting benefit checks. Despite welfare's 
apparent work requirements, States did so through a grab bag of 
accounting gimmicks, loopholes and exceptions.
    Then in mid 2012, the Obama Administration released their 
unprecedented guidance, suggesting States could waive work 
requirements altogether. While no States sought waivers, that 
move sent a clear signal that work requirements don't matter to 
the Administration. Add in the fact that the last comprehensive 
reauthorization of welfare was in 2006, it is clearly past time 
for a full review and reauthorization of the critical program.
    That is what we are here today to do, to review how we can 
improve welfare to help more parents find work so their 
families can escape the trap of poverty, which starts with 
rejecting the Obama Administration's guidance waiving work 
requirements. It certainly doesn't end there. Other more 
important bipartisan policies can strengthen the work 
requirements and improve the program.
    For example, the President's budget would prohibit the use 
of nongovernmental third-party expenditures to meet State 
maintenance of effort requirements, and includes a provision to 
ensure that States use these welfare funds for benefits and 
services to needy families. We should be able to find agreement 
on that that would strengthen welfare and focus its resources 
on families who most need the help. We should also reduce 
marriage penalties, simplify the program administration and 
pave the way for broader reforms, improving opportunity and 
upward mobility.
    This is about more than abstract policies here in 
Washington, D.C. And so that is why today, I think, the 
Committee's going to be really benefited greatly by being 
joined by Sherrie Smoot, who spent years on welfare without 
getting the kind of help she really needed, how to find, get 
and keep a job. For example, her example shows what can happen 
when we actually really do have programs that help people solve 
problems instead of just dispensing checks year after year. 
That is the real goal of the hearing today, for more people to 
succeed like Sherrie.
    I look forward to all the testimony and working with 
Members on both sides of the aisle to do just that. With that, 
I will be pleased now to turn to the esteemed Ranking Member of 
the Subcommittee, Mr. Doggett, for the purposes of an opening 
statement.
    Mr. DOGGETT. Thank you, Mr. Chairman, and thanks to each of 
our witnesses for coming. I look forward to hearing the diverse 
testimony that each of you have to offer. I think that we saw 
in 1996 an opportunity to change welfare, move welfare to work. 
I joined in that effort by supporting the reform that occurred 
then. We had significant early promise from the program, but I 
think that promise has slowed, and that we have allowed 
spending to be directed away from help to people to go to work. 
The TANF funds have not kept pace with inflation, they have 
prevented the small amount of financial assistance that we give 
to families from providing any real support. We called on the 
States to do more to incentivize work, but, in some cases, 
Federal TANF monies have been little more than a slush fund for 
States to use for whatever social service purpose they wanted 
where they were spending money and simply replacing it with 
Federal dollars and shifting that to something else.
    We see the share of TANF funds that are spent on promoting 
work accordingly from the States has declined over time. As Dr. 
Donna Pavetti says in her written testimony, the States are now 
using only about 8 percent of their TANF funds for work 
activity. Perhaps even more troubling, TANF's current 
provisions designed to encourage work are short-sighted. The 
participation requirements measure the amount of time that an 
individual spends in Federally defined work activities rather 
than on how many welfare recipients are able to find and 
maintain a job.
    There, I think, we do have a bipartisan part, that finding 
and retaining a job at a livable wage is the best path out of 
poverty and the objective for which we should be striving. This 
troubling focus is reflected in the fact that the amount of 
people on TANF who may participate in vocational education is 
capped, and the amount of time a person can spend learning an 
in-demand job skill is limited.
    How can we expect struggling parents to find long-term work 
to help them avoid needing assistance in the future when we so 
severely restrict training opportunities? A recent report from 
the Government Accountability Office described how the current 
system ``discourages States,'' and ``lacks incentives to foster 
broader adoption of promising approaches to help those on TANF 
find long-term work.''
    As Utah's Republican Governor Gary Herbert explained in 
2012 to our Committee, TANF participation requirements do not 
lead to meaningful employment outcomes. Officials in Kentucky 
have even explained that some of the current limitations are 
adding to the overall program cost.
    In just my own State of Texas, we have seen outside of 
welfare-to-work dollars how programs like Project QUEST in San 
Antonio and Capital IDEA in Austin partner with community 
colleges and local businesses to successfully train low-income 
individuals for living wage jobs that are in high demand in our 
communities. Allowing the States the use of such programs will 
put more people into careers they can use to climb the economic 
ladder. I was particularly interested in State Secretary Eloise 
Anderson's written testimony concerning the importance of 
strengthening the ability of States to use these types of 
education programs and double the amount of time those on TANF 
can participate in them. I look forward to hearing other 
proposals from our witnesses.
    We, as you know, have September 30 approaching, an 
opportunity to focus on work, not on peripheral issues, not on 
shaming the poor, but on work and ways to encourage that work 
in these livable wage jobs.
    Mr. Chairman, I look forward to our work together toward 
that deadline in finding meaningful changes in TANF and 
renewing it at an acceptable level. I yield back, and thank 
you.
    Chairman BOUSTANY. I thank the gentleman. I think there is 
going to be a lot of common ground to actually spread this 
program. I appreciate the gentleman's statement.
    Without objection, each Member will have the opportunity to 
submit a written statement and have it included in the record. 
I want to remind our witnesses as we go forward with your oral 
statements, we are going to go 5 minutes. We have your written 
testimony. We have been able to review it. Try to keep your 
comments to 5 minutes as is customary here so we can get 
through the hearing in a timely way and leave plenty of time 
for questions.
    We have a very distinguished panel today. This is going to 
be a very good hearing, a very informative hearing. First, we 
will hear from Peter Cove, founder of America Works. Next, we 
are going to hear very compelling testimony from Sherrie Smoot, 
former America Works client, who is going to give us some real-
life experience in working through these programs.
    Next, Eloise Anderson, no stranger to the Subcommittee, and 
Co-chair of the Secretaries' Innovation Group and Secretary of 
Wisconsin Department of Children and Families. Then we will 
hear from Heather Reynolds, President and CEO of Catholic 
Charities Fort Worth. Tracy Wareing, Executive Director, 
American Public Human Services Association, and then last and 
certainly not least, LaDonna Pavetti, Vice President for Family 
Income Support Policy, Center on Budget and Policy Priorities.
    I want to thank you all for being here. You bring 
tremendous expertise to this hearing and we will start with Mr. 
Cove. So thank you for being here and please proceed with your 
testimony.

               STATEMENT OF PETER COVE, FOUNDER, 
            AMERICA WORKS OF NEW YORK, INCORPORATED

    Mr. COVE. Chairman Boustany, good afternoon. My name is 
Peter Cove and I am the founder of America Works of New York. 
Before I begin, I would like to thank House Ways and Means 
Chairman Paul Ryan, Human Resources Subcommittee Chairman 
Charles Boustany, and the rest of the Committee Members for 
allowing me to speak today.
    America Works was founded in 1984 to help welfare 
recipients to get jobs. It was the first for-profit company 
dedicated to this effort. There are four principles which we 
are passionate about. First, people on welfare can and want to 
go to work. Prior to welfare reform, the assumption was that 
people needed to stay home or they couldn't go to work.
    Second, work combined with on-the-job training curriculum 
designed by employers, not training in isolation, is central to 
that effort. For far too many years, welfare recipients were 
sent to training programs that never led to employment.
    Third, companies should be paid for performance. Only when 
a person gets and keeps a job should a vendor be paid.
    Fourth, getting a job is easy, but keeping the job is hard. 
So we developed retention services for the first 6 months to 
provide counseling, on-the-job coaching, interventions to 
navigate workplace issues, and attach workers to a host of 
financial incentives. In the 1980s, we ran modest-sized 
programs around the country with our program design, and they 
attracted the media and the interest of politicians. Newt 
Gingrich was an early supporter, as was the Democratic 
Leadership Council, the DLC, which was headed by Bill Clinton, 
among many others.
    America Works was involved in providing information to both 
the House and White House during the implementation of the 1996 
TANF law. Once the law passed in 1996, America Works expanded 
its services in a number of States around the country. During 
the first 10 years, there was a great deal of experimentation 
with different service models, but always with a primary focus 
on employment and not abstract training unrelated to jobs.
    In 2006, when the bill was reauthorized, the focus of each 
of the contracts was directed toward participation rates. This 
will be part of the presentation as I go on. Since the start of 
America Works 31 years ago, we have placed over 500,000 people 
in jobs. We have expanded the services we provide to other 
populations, including ex-offenders, veterans, the homeless, 
and people with disabilities.
    I would like to address seven areas in which I believe TANF 
needs to be strengthened. First, although the law directs the 
local governments to have 50 percent of their caseload looking 
for work, most do not. States have elaborate ways of reporting 
the data so that far fewer able-bodied people are actually 
participating. This is accomplished by moving recipients in and 
out of the denominator that determines the 50 percent rate, in 
some cases into separate State programs not subject to Federal 
requirements. In addition, there are reductions in 
participation requirements based upon caseload reductions and 
State spending on the population beyond the expected 
maintenance of work level.
    Second, despite the law, which directs localities to limit 
welfare to 5 years, many places do not do that.
    Third, very few cases are ever sanctioned. A history of 
granting good cause waivers, conciliation and appeal hearings 
has led to welfare departments retaining a culture of not 
aggressively using the sanction process as it was intended.
    Fourth, every State has a pool of people who are exempted 
from participation for medical reasons. However, since all that 
is required is a doctor's note, some of these cases are not 
legitimate.
    Fifth, in a related issue, there are many TANF recipients 
whom States would like to remove from their rolls, and instead 
place in SSI and SSDI. Again, this is appropriate for those who 
clearly cannot work, but inappropriate for many others.
    Sixth, there is an increasing number of programs at the 
Federal, State and government levels which are being contracted 
out only to not-for-profits. As we have seen in New York City, 
the most effective jobs programs are those run by the for-
profit industry. We see no reason that for-profit companies 
should be excluded from participating, there is no reason.
    Seventh, and the final point, has to do with work 
verification procedures that were made unduly complicated in 
the 2005 reauthorization. Here I believe there is the law of 
unintended consequences. The intent was to close the loophole 
where States were allowing people to do these kinds of non-work 
related activities. The effect on the ground is a tremendous 
amount of administrative paperwork on contractors such as 
America Works, and this really takes away from the program 
activities.
    I want to just add one other comment, and I want to 
reiterate something I said before. People talk about best 
practices in welfare reform. To me there is only one, and that 
is government should only be paying those who are responsible 
for getting people jobs, if they get people jobs. They 
shouldn't be paying them for their program, they shouldn't be 
paying them for their staff, they should be paying them for 
getting them jobs and keeping them in jobs. We pioneered that 
back about 30 years ago. I have to tell you, it still is 
difficult to get governments to agree to that. Thank you very 
much, Mr. Chairman.
    [The prepared statement of Mr. Cove follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    
                                 
                                 
    Chairman BOUSTANY. Now we will hear from Ms. Smoot. And I 
want to say we are very, very happy that you are able to be 
with us today to share your personal story. It always takes 
quite a bit of courage to do that publicly, so we deeply 
appreciate it because it will be very informative to us in this 
discussion, and also in how we proceed going forward. So with 
all that, Ms. Smoot, please proceed and we would love to hear 
your testimony.

                  STATEMENT OF SHERRIE SMOOT, 
                  FORMER AMERICA WORKS CLIENT

    Ms. SMOOT. Thank you for allowing me the opportunity to 
testify before you today. My name is Sherrie Smoot, and I am 
grateful to share my story, a story that shows what 
perseverance and support can do for someone receiving public 
assistance.
    My mother, brothers and I had moved a bit when I was young. 
I went from Washington, D.C. to New York and returned to 
Washington, D.C. for good when I was around 12 years old. My 
mother did not have my transcripts upon our return to 
Washington, D.C., so I was sent to Woodland Job Corps Center 
program. I was in Woodland Job Corps Center for 2 years and was 
doing really well in my business and clerical coursework. Soon 
afterward, I graduated from Woodland Job Corps Center with 
certificates in the trades I had studied.
    When I returned to the District, I had nowhere to go and 
was staying house to house. My brother and his girlfriend took 
me in. I was trying to find work, but no one would hire me. I 
knew nothing about writing resumes, cover letters or thank-you 
letters. I did not have enough money or enough experience to be 
seen as qualified. A few months later I became pregnant with my 
daughter, Danniele Lee. I tried to get public assistance but 
was turned away. They said I had to be 6 months pregnant, so my 
brother's girlfriend, she took care of me. After 6 months, I 
started receiving public assistance. After becoming pregnant 
with my second child Frank Lee, Jr., the children's father and 
I separated.
    After I had my son, I had to join a jobs program at a local 
nonprofit. I gained computer skills and earned certificates. 
Soon after, I earned a temporary position working with Douglas 
Resources, Incorporated.
    I was not successful in retaining positions due to health 
and personal concerns. I was mandated to another program where 
I was able to obtain my GED and gain additional work experience 
with some temporary and contract positions. Two years later, I 
went to the University of the District of Columbia after 
receiving aid from the TAPIT program. I have since received my 
Bachelors of Computer Information Systems science. Around a 
year and a half later, I earned my first IT temporary job 
working for Corestaff at the Advisory Board Company.
    When that contract ended, I was sent another letter to join 
a workforce program. I picked America Works of Washington, 
D.C., where I learned how to write cover letters, build 
resumes, and build self-confidence, and how to prepare for 
interviews. I also had the opportunity to build my own resume 
by participating in a work experience assignment with the 
District's Department of Human Resources. While at America 
Works, I was also warmly referred to the program recruiter for 
the Veterans Group. Although not a veteran, I was invited to 
attend the Veterans Group and took up CompTIA A+ Security+, 
Network+, CCNA, CCENT, Microsoft Windows Server and MCTS 
classes in which I graduated with a security administration and 
network administration completion certificate, and as a 
Microsoft certified technology specialist.
    I now work with Teksystems at the Environmental Protection 
Agency as a call center central analyst. My daughter is in 
college aiming to be a United States Marshal; my oldest son is 
graduating from high school this year, and going to college 
aiming to be an FBI agent. And my youngest son is in junior 
high school. My TANF case has been successfully closed since 
2014.
    Honestly speaking, America Works is a program that has the 
best staff, and they make you achieve when you think you can't. 
They taught me how to express myself and how to have confidence 
and now the road that I am on has inspired me to shoot for the 
stars. Thank you for allowing me this opportunity. I look 
forward to any questions.
    [The prepared statement of Ms. Smoot follows:]
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
    
    
    
    Chairman BOUSTANY. Thank you very much.
    Ms. SMOOT. You are welcome.
    Chairman BOUSTANY. Ms. Anderson, you may proceed now.

 STATEMENT OF ELOISE ANDERSON, SECRETARY, WISCONSIN DEPARTMENT 
OF CHILDREN AND FAMILIES, AND CO-CHAIR, SECRETARIES' INNOVATION 
                             GROUP

    Ms. ANDERSON. Chairman and Ranking Member, thank you for 
the invitation. As you know by my testimony, I am Secretary of 
the Department of Children and Families for the State of 
Wisconsin, and I am also the Chairperson for the Secretaries' 
Innovation Group.
    I want to talk about TANF, Temporary Assistance for Needy 
Families. I believe TANF was intended to engage parents in work 
and job preparation activities to promote family self-
sufficiency and reduce long-term dependence on welfare.
    The WPR, which is the Workforce Participation Rate, was 
established as a performance measure to ensure States' programs 
reflected full engagement in helping parents enter the 
workforce. We support the accountability message surrounding 
the WPR, and believe that the focus on work must be maintained 
to encourage family stability through employment. Participation 
requirements, as currently structured, must be revised to 
ensure that the standards align with the ultimate goal of TANF 
programs moving recipients from welfare to work.
    The issues are that, in its current state, the work 
participation rate is entirely process-driven in that its rate 
measures the number of families in the State TANF caseload 
participating in assigned work and work-related activities for 
a required number of hours. There is currently no outcome-based 
performance measure. I want to go back over that. There is 
currently no outcome-based performance measure established to 
evaluate success in increasing the employment of low-income 
families.
    Rule changes surrounding TANF in the Deficit Reduction Act 
of 2005 greatly restricted the autonomy necessary for operating 
TANF programs to fit individual needs of States. I think it is 
very difficult for a centralized government to understand how 
all the States need to perform.
    Recommendations that we are putting on the table is to 
revise the work participation rate to support employment 
outcomes. Our recommendations are for revising and enhancing 
the work participation rate where we derive from our experience 
with pay-for-performance contracts. In Wisconsin, we have all 
our operators who we contract with on a pay-for-performance 
system. I think that is the way the TANF program needs to go 
overall.
    We believe that we should be funding job attainment, job 
retention and wages. We believe that the system should reward 
employment outcomes and allow for our programs to help 
participants achieve long-term financial independence, and also 
provide information about which services and opportunities are 
most effective in achieving those goals.
    So, if you really support job attainment, job retention, 
and job wages and allow States to be able to freely figure out 
how to do that, we will learn a lot more than you guys 
directing all the traffic.
    Three general categories that I want you to think about 
are, restore the enhanced areas of the State flexibility that 
were generally undermining the DRA; maintain a focus on work 
and balance, the individual activities and that there needs to 
be that balance for able-bodied employment, and to support 
long-term job retention; and three, enhance the Workforce 
Participation Rate by developing additional performance 
measures, all focused on work, retaining work, and keeping work 
for the long term, with particular emphasis to those related to 
employment outcomes.
    We believe that if we take our focus from the process focus 
to really look at the outcomes of who is getting a job and how 
long they are staying on a job, for long-term people we will 
have a better outcome across the Nation. My conclusion is, 
implementing changes to increase the focus on employment, job 
retention and higher wages through continued skill development 
is consistent with the overarching goal of TANF. We believe it 
is vital that the provisions surrounding the Workforce 
Participation Rate are enhanced to expand performance measures 
to employment outcomes and allow States greater flexibility in 
creating program approaches that best fit the individual States 
needs as well as the individual participants' need, and 
provides an opportunity to demonstrate what approaches are most 
effective. Consider using the contingency fund the way you use 
title 4(d) as an incentive for outcomes. We believe that what 
we do in 4(d), which is the child support program, that what we 
do in there really forces States to want to compete with each 
other in outcomes, but it also creates--it rewards the 
outcomes. So I would like you to look at the 4(d) model as a 
way to use a contingency fund if we go forward with that.
    Thank you.
    [The prepared statement of Ms. Anderson follows:]
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
   
    Chairman BOUSTANY. I thank you. Ms. Reynolds, you may 
proceed.

  STATEMENT OF HEATHER REYNOLDS, PRESIDENT AND CEO, CATHOLIC 
                      CHARITIES FORT WORTH

    Ms. REYNOLDS. Chairman Boustany, Ranking Member Doggett, 
and Members of the Subcommittee on Human Resources, thank you 
for the opportunity to speak with you today. My name is Heather 
Reynolds, and I am CEO of Catholic Charities Diocese of Fort 
Worth. Over 100,000 people come to our organization every year 
for help. Three hundred eighty-four employees are back at 
Catholic Charities Fort Worth right now working to move clients 
out of poverty.
    Our team knows that individualized, holistic case 
management is the critical element in moving someone from a 
place of dependence on government or charity to a place of 
self-sufficiency. Many government programs intended to help 
people out of poverty only meet basic needs, but never give 
what is truly needed to be self-sufficient. Simply put, it is 
my belief that pouring more money into TANF just doesn't make 
sense. Using existing funds in a smarter, better way does.
    As a businesswoman running a $30 million agency, I would 
never simply add more resources to an already well-funded, yet 
failing system or service. More money is not the answer. In the 
case of TANF, overhaul is. I have three suggestions for 
reforming this program. First, allowing funding at both the 
Federal and State levels to be flexible enough to allow us to 
pair assistance with intensive case management and other 
services.
    If TANF was structured more like some of our refugee 
programs, would it also mirror their success? The Federal 
voluntary agency matching grant program for refugees, which we 
participate in, in Fort Worth is a successful, federally-
funded, anti-poverty program in the United States. More than 80 
percent of our refugee clients are completely self-sufficient 
after 6 months. It is extremely rare for any of our refugee 
clients to even access TANF because they usually don't qualify 
since they entered the workforce.
    Second, we need individualization. State TANF laws and 
policies need to be more flexible so this benefit can be used 
in a way that will help individual families the most. For 
example, TANF clients enrolled in our workforce program receive 
vouchers that they can use for child care while they attend 
employment-related classes or apply for jobs, but these 
vouchers can only be used at certain child care centers. The 
centers often have wait lists, are over an hour away, or are 
not near a bus stop. The inflexibility of this benefit makes it 
extremely difficult for clients to actually access the help 
that these vouchers are supposed to provide.
    The current Texas TANF structure requires them to follow a 
prescribed program that may not meet their needs or help them 
make any progress along the path of self-sufficiency. By 
failing to customize benefits to individual needs, something 
that is intended to help can actually become a barrier to 
getting families out of poverty.
    Third, rather than abruptly ending once a client starts 
working, TANF's benefits should be gradually reduced to offer 
continued support until a person can reach a living wage. By 
actually raising the income limit for applicants, TANF can 
supply supplemental support while the client is working, 
helping them get completely out of poverty, and eliminating the 
need for them to access government benefits again in the 
future.
    The end goal of TANF and other welfare programs should be 
supporting people to secure living wage work so they can live 
healthy, self-sufficient, fulfilling lives. Simply helping them 
survive is not enough.
    Gallup recently released study findings related to managing 
human capital in the workforce. Gallup found that developing 
the already innate strengths of individual employees leads to 
an exponentially more employee potential. Gallup found that 
when employees know and use their strengths, they are far more 
productive and their performance is spectacular.
    If government assistance can be structured in a similar 
way, shifting from a complicated set of criterion processes in 
order to attempt to fix people, to allow for case management 
systems that would support them using their own strengths, what 
is right with them, what would be the result? I think it would 
be more people successfully employed, leaving behind reliance 
on government, welfare, or charitable assistance forever.
    We often say in Fort Worth that we hope to put ourselves 
out of business. Making TANF more flexible, individualized, and 
responsive would be a step in the right direction.
    It is not okay for the greatest Nation on Earth to allow 46 
million men, women and children to struggle in poverty day 
after day and year after year. It is an affront to the values 
that Americans everywhere hold dear. As children reciting the 
Pledge of Allegiance, we learn of the ideal America, ``One 
Nation under God, with liberty and justice for all.'' We must 
do better. To accept the status quo would be to turn our backs 
on millions of Americans seeking self-sufficiency and the 
pursuit of happiness. Thank you.
    [The prepared statement of Ms. Reynolds follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
   
    Chairman BOUSTANY. Thank you very much, Ms. Reynolds. Ms. 
Wareing, you may proceed.

STATEMENT OF TRACY WAREING, EXECUTIVE DIRECTOR, AMERICAN PUBLIC 
                   HUMAN SERVICES ASSOCIATION

    Ms. WAREING. Good afternoon, Mr. Chairman and Members of 
the Subcommittee. I am Tracy Wareing Evans, Executive Director 
of the American Public Human Services Association. We 
appreciate the opportunity to share insight from governor-
appointed service leaders, like Eloise, as well as many local 
agency directors that we represent at APHSA, and how we can 
more effectively connect Americans to the workforce and to a 
sustainable career path.
    Mr. Chairman, your description for today's hearing 
expresses this Subcommittee's intention to examine ways to make 
the Federal welfare program more efficiently and effectively a 
hand-up from poverty, not a handout. We, too, are interested in 
what evidence tells us actually works and how public 
investments can return real and lasting value.
    We urge the Subcommittee to look beyond TANF. As laid out 
in our member's pathway agenda, success in the marketplace is a 
function of not just TANF and other human service programs, but 
a wide segment of the broader community, including education 
and training, employers, nonprofit groups and other government 
agencies.
    My remarks about TANF today are provided within this 
broader context. While our members do recommend some changes in 
TANF's details, and we have noted those in my written 
statement, and I think you have heard them from the panelists 
today, our overarching concerns are with the full workforce 
engagement system, and how its components must work better 
together to make real progress. We must support changes in that 
human services system that more effectively deliver what we 
call engagement that matters, ultimately getting parents into 
sustainable jobs with wage progression and advances in 
opportunities.
    At its core, TANF was designed to help low-income parents 
build a pathway out of poverty and toward economic security for 
their family, while assuring the safety and well-being of their 
children. Our members believe that TANF participants who can 
move directly into jobs should have the opportunity to do so. 
But our members also know that most TANF participants are 
families in crisis and face various obstacles that require 
targeted and appropriate support to become work-ready, get a 
job with a family-supporting wage, and stay in the workforce 
over time.
    Indeed, their very presence on the TANF caseload typically 
means that faster and more direct routes to sustain employment 
haven't worked for them. States such as Utah are using a 
variety of strategies to better engage families through 
intergenerational approaches, as well as alliances with a 
business and education community that trains students in high 
demand skills. A compelling example of what we mean by 
engagement that matters is occurring in Washington State. There 
they began with a focus on stabilizing families in crisis by 
identifying what is causing the instability.
    Employment counselors look at what is happening with the 
family, and they ask questions about their strengths and their 
challenges. They ask how are your kids doing in school? Are you 
caring for an elderly parent? Do you have a child with special 
needs? Is there a substance abuse or mental health condition in 
the home? Once stabilized and the family dynamic is understood, 
the assessment evaluates work-readiness through educational 
levels and work history.
    This extended look at what is happening with a family 
allows for engagement that matters, leading to better-informed 
interventions and early attention to barriers that might 
otherwise result in parents failing to secure a job or to 
achieve the economic security that we desire for them.
    Let me be clear, engagement is not about ignoring sanctions 
or extending time limits, these remain important motivators, it 
is about getting to the core issues sooner and eliminating the 
barriers, helping to assure long-term success and preventing 
families from recycling on and off the rolls.
    I think it is fair to say that our members are disappointed 
that TANF has now, for a decade, been subjected to an 
accountability scheme that tracks participation metrics, that 
doesn't use actual paid employment or independence from 
government support as its outcome measures.
    The work participation rate is extremely complicated. As a 
result, the system directs energy to process and paperwork, but 
tells us little about whether participants are truly moving 
toward greater self sufficiency. States are hamstrung by 
arbitrary limits to prevent many in the caseload who come with 
a wide variety of existing skill levels from receiving the 
tailored service that you just heard about from Heather that 
are aimed at getting them into long-term employment.
    So exactly how should we move forward? States are 
encouraged by the opportunities that the Workforce Investment 
and Opportunity Act is offering them and urge a more aggressive 
approach. We should give States the ability to opt into 
performance measurements based on actual employment, retention, 
and advancements, as well as the measures of the child's well-
being, rather than the current process-focused activities of 
the WPR.
    We should examine additional ways to blend and brave 
funding from multiple sources in the workforce system, and you 
might want to look at the disconnect youth partnership pilots 
that were recently enacted that work across existing resources, 
not new resources, across HHS, education, and labor.
    In conclusion, we really believe that we have to spend more 
time talking about what is actually going to work as a career 
pathway to serve individuals with those more complex needs and 
we look forward to working with you.
    [The prepared statement of Ms. Wareing follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    Chairman BOUSTANY. Thank you very much, Ms. Wareing. Ms. 
Pavetti, you may proceed.

STATEMENT OF LADONNA PAVETTI, VICE PRESIDENT FOR FAMILY INCOME 
     SUPPORT POLICY, CENTER ON BUDGET AND POLICY PRIORITIES

    Ms. PAVETTI. Thank you for the opportunity to testify 
today. I am LaDonna Pavetti. I am Vice President for Family 
Income Support at the Center on Budget and Policy Priorities. I 
have spent most of my career studying TANF programs and working 
in States to help improve them. In my testimony today, I am 
going to first provide five key facts that demonstrate how 
little TANF does to help families find work and escape poverty, 
then I will suggest policy changes to improve the program.
    First the facts. Number one, TANF provides cash assistance 
to very few needy families. When TANF was enacted, 68 families 
received assistance for every 100 families in poverty. That 
number has since fallen to just 26 families for every 100 
families. And in 10 States, fewer than 10 families receive cash 
assistance for every 100 families in poverty.
    Fact number two: TANF lifts many fewer children out of deep 
poverty than AFDC did. The share of children living in deep 
poverty has increased since welfare reform was implemented and 
research suggests that the loss of TANF benefits has 
contributed to that growth.
    Fact number three: States spend little of their TANF funds 
to help improve recipient's employability. One of the key ideas 
behind block granting TANF was that if States had more 
flexibility, they could use the funds previously used for cash 
grants to help recipients find jobs, and to cover the cost of 
work supports like child care. However, this is not what States 
did. In 2013 States spent only 8 percent of their TANF funds on 
work activities, and only 16 percent on child care.
    Number four: Most of TANF's early employment gains have 
since been lost. Employment among never-married mothers with 
limited education peaked in 2000, 14 years ago and has fallen 
considerably since then. Since 2000, never-married mothers have 
been just as likely to work as comparable single women without 
kids.
    Fact number five: The successive work program is vastly 
overstated. Studies completed in welfare reform's early years 
are often used to tout the success of programs that encourage 
recipients to get a job quickly rather than taking the time to 
increase their skills so they can get a better job. The problem 
is that the studies are decades old and they did not lead to 
steady employment for most participants. In one of the programs 
deemed most successful, only 38 percent of the participants 
were employed steadily. More recent rigorous studies 
demonstrate the training is effective. Evaluations of at least 
three different training programs show that earnings increased 
by 27 to 32 percent in the second year after participants 
commenced.
    Now I would like to turn to a discussion of how to make 
TANF a better program. In developing my recommendations, I 
considered two questions: First, what do we want States to do 
that they are not doing now? And second, what changes would 
encourage them to move in that direction? My answer to the 
first question is that we want States to provide assistance to 
families in need and we want them to support multiple pathways 
to work that take into account individual strengths and 
limitations, and not just focus on meeting work rate.
    So what changes could Congress make that would help move 
States in this direction? I will focus on four recommendations 
here and have additional recommendations that echo many of the 
recommendations of my colleagues on the panel in my written 
testimony.
    First, require greater investments in work activities. If 
States don't spend more on work activities, it is hard to see 
how we will improve TANF work programs. All States could be 
required to spend a specified portion of their TANF dollars on 
work activities. And rather than paying penalties, States that 
do not meet performance measures could be required to invest 
additional funds from work activities.
    Second, establish a demonstration project that encourages 
State experimentation. This demonstration could build on the 
bipartisan demonstration project that Congress created to 
encourage States to do the same thing with SNAP recipients.
    Third, redesign the TANF contingency fund to focus on 
subsidized employment and training. The recent recession 
exposed serious flaws in the design of the contingency fund, 
which is unnecessarily complicated and poorly targeted to 
achieve its purpose. It is one of the funds we could use to 
actually do something better.
    And fourth, identify ways to integrate TANF work programs 
into the broader workforce system. Last year Congress passed 
bipartisan workforce legislation that emphasized coordination, 
training participants for today's labor market, and serving 
those in need. Those same principles should be applied to TANF 
so that the two systems are in sync with one another.
    Finally, I think it is important to keep in mind that TANF 
is part of a larger safety net that plays a critical role in 
supporting families when they go to work. Success in TANF will 
require that those supports are in place. We have learned a lot 
over the last 18 years about what does and doesn't work in 
TANF. We should use that knowledge to create a more effective 
system that will build parents' capabilities and will provide a 
brighter future for our children with a future of kids that are 
served by TANF and hopefully for those who are not served by 
TANF now, but should be. Thank you.
    [The prepared statement of Ms. Pavetti follows:]
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
    
   
    Chairman BOUSTANY. Thank you very much, Ms. Pavetti. We 
will now move to questions. I will begin here.
    Ms. Smoot, first I want to start with an apology to you. 
You should not have had to wait all those years to get the kind 
of help that you really needed. We have to do a better job of 
aligning these programs, holding them responsible for actually 
helping people like yourself and others who are caught in this 
trap. And you deserve that, your kids deserve it, the taxpayers 
deserve to get value for what they are providing to help needy 
individuals. This is about individual lives trapped in a cycle 
of poverty. And we are just moving along at the same pace.
    I think all of you in your testimony have put this out 
there about very important things that we could consider to 
reform the program. My background, I was a physician, so I 
dealt with individuals. And I like the idea of casework and 
individual approaches, the flexibility, take advantage of the 
potential, what each individual brings to the table, help them 
find their path, but put them on a path to growth. I think this 
is critical.
    So Ms. Smoot, you spent 2 years in Job Corps, got a GED, 
and finally obtained a college degree all without being able to 
successfully land a stable job. During much of that time you 
were able to collect the benefits. Is that correct?
    Ms. SMOOT. Yes.
    Chairman BOUSTANY. So what do you think about the TANF 
program, as well as the other programs that you dealt with? 
What could we do to get more help, substantive help quickly to 
you and others who are in similar situations to get you back to 
working and supporting your family and achieving your dreams?
    Ms. SMOOT. Well, going to America Works, that really helped 
me. Going to the Veterans' Group, that really helped me. It is 
all about getting either certifications for something you want 
to do or getting the education for something you want to do. I 
mean, I have seen girls go--well, some people go to programs 
and they go out there and they get jobs working at the Safeway, 
or Payless, or something making less than $9 or $10 an hour. 
Now, personally, getting off of public assistance, it is going 
to take you maybe $15, $16 an hour. The money--if you sit with 
$10 an hour on PA, you are not going to get off that way, not 
unless you are working two or three jobs.
    So I would say if somebody wanted to get off, they would 
have to find a position making that type of money or more. And 
I mean that is just right for me, because the position I have 
now is paying just about that much or more and I am hoping not 
to ever leave that position, but I like what I am doing. And I 
am hoping that whoever tries to get off likes what they are 
doing, because if you don't love your job, it is not a job to 
you. And what I am doing now, it is not only my job, the people 
I am around are my family, you can say. So I mean that--it is--
it is nice.
    Chairman BOUSTANY. So when you first got started and you 
were told, okay, you have to find work and--tell me a little 
bit more about the people trying to help you. Did they actually 
say, well, what do you want to do? What do you picture yourself 
doing? How can we help you get there? Did they give you 
options, you know, on a way to grow into a career rather than 
simply take a job at a convenience store or something like that 
to get minimum wage or slightly above minimum wage?
    Ms. SMOOT. No, the only ones that really helped me was 
America Works, and that is why today I am where I want to be. 
Back then, I mean, I got my certificates, but I didn't have the 
training. I mean, I walked into an interview and she looked at 
my resume and said, you have never had a job. No, I had 
training, I had education, but I didn't have experience.
    So the minute I got home I got the phone call saying I 
wasn't qualified. And that really hurt me to my heart not 
having the experience and then no one wanted to train me. And 
now, look. I got the experience, I had the certifications, and 
I have my position that I really want doing something I love.
    Chairman BOUSTANY. It is a testament to your spirit that 
you just kept going through all that.
    Ms. SMOOT. Yes.
    Chairman BOUSTANY. Ms. Anderson, do you want to comment on 
what you just heard? This is quite a remarkable story.
    Ms. ANDERSON. Well, I have been in this business too long. 
One of the things I learned early is that we tend not to line 
our programs up with people's interests, and we tend not to 
line our programs up with people's aptitudes. And we put people 
in jobs that they have no interest in, that they cannot see a 
future in, and they collapse and they don't stay.
    One of the things I think that I learned early and we are 
trying to put in our programs is that people need to be in a 
job that they enjoy and that they can see a future in. If they 
don't see a future, they are not staying in that job, they are 
not giving everything they have. Now, I am an employer, and I 
tell my employees all the time, I want you to love what you are 
doing, because if you love what you are doing, you will give me 
everything you have. Why would I think different for people we 
have in our programs? And so the disconnect for me is that we 
say, I am going to put you in any job, and I believe that is 
the wrong move to make.
    The other thing that we try to do is that if we look at the 
requirement on 12 months of training in Wisconsin, I can't get 
a person a good job with that simply because our jobs are 
manufacturing and high skills, and it takes 2 years.
    Chairman BOUSTANY. Two years, yeah.
    Ms. ANDERSON. So in 2 years I can get you an associate 
degree. You can become a machinist, you can become a carpenter. 
There are all kinds of skilled jobs that I can get you in 2 
years that are high-paying jobs. In 12 months, I can hardly get 
you anything. And we have jobs in Wisconsin that are going open 
because we can't get skills to fill them. So what she said is 
what we are experiencing in our programs.
    Chairman BOUSTANY. Yeah, we don't want a program that takes 
somebody trapped in a hopeless situation and moves them into a 
trap of just despair. You can either put them--you know, 
hopefully have programs that help them achieve some growth and 
a career track, something they can embrace as their own, be 
proud of, and to advance their own----
    Ms. ANDERSON. I think what she also said is something that 
is subtle, her children are following her.
    Chairman BOUSTANY. I know. I was getting ready to make that 
point. That is a very important point----
    Ms. ANDERSON. Successful.
    Chairman BOUSTANY. Because we have seen too many families 
now where you have multiple generations who get caught in the 
same trap. And so you have now, Sherrie, allowed your children 
to see a path and you have a tremendous hope of achieving the 
American Dream.
    Thank you. I now yield to Mr. Doggett.
    Mr. DOGGETT. Mr. Chairman, I think you made some good 
points, and it doesn't help to get someone out of one dead end 
and into another. Secretary Anderson, I think you just made 
that point as well.
    Ms. Smoot, you were saying that really, to get by, you have 
to get up to the $15-, $16-, $17-an-hour level, depending on 
where you are in the country to get what is considered to be 
not just a wage, but a liveable wage, right?
    Ms. SMOOT. Yes.
    Mr. DOGGETT. And there is no way you could get by on a 
minimum wage job, is there?
    Ms. SMOOT. No.
    Mr. DOGGETT. It won't keep food on the table and won't pay 
the rent. So often these programs seemed aimed at just getting 
somebody--just the numbers, just getting somebody into a 
temporary position. One of those jobs that you said might be at 
Payless or might be at Safeway sacking groceries, nothing 
dishonorable about that, but usually not a way that you can 
afford to keep paying the Safeway bill and the rent bill.
    I was impressed by, though you came at it in different ways 
and I know there is not total consensus on this, but that each 
member of our panel from the different perspectives you bring 
all seem to be saying that our current TANF work participation 
rules, our requirement is flawed. I guess I would just begin 
with Dr. Pavetti and go across to each of you and ask you if 
you do agree that we need to modify the TANF work requirement 
to make it more focused on results and not just on a process? 
And should the bottom line performance measure be the number of 
TANF recipients who find and maintain a good job and how might 
that requirement be more adequately stated?
    Ms. PAVETTI. I definitely think we should be focusing on--
--
    Chairman BOUSTANY. Turn on your mike.
    Ms. PAVETTI. I definitely think we should be focusing more 
on results than on process. I think that what we need to think 
about is, one of the things that I think is important is there 
is a difference between work requirements and imposing work 
requirements on individuals, and the work participation rate. 
And I have been in enough States that I don't think any State 
would move away from actually expecting people to either be in 
work or to be in training or to do something. I think that is 
very much a part of our culture. But I think what we measure 
needs to be what happens when people participate in that.
    I think we really need to look at the workforce system so 
that we have a blending across and we are not treating TANF 
recipients differently than we are treating everybody else. And 
so I think there is a need on the work requirements themselves, 
the activities, to make those simpler and also to look at 
exactly the measures that you indicated to come up with a 
better system.
    Mr. DOGGETT. Thank you. Ms. Wareing.
    Ms. WAREING. Yeah, I would echo what LaDonna has said. I 
think that there--you have to talk about have you been 
employed, have you had an opportunity--are you retained in that 
employment? There has to be some period of time where you 
continue to stay with a family, and what does your wage 
progression look like? I think it is interesting, I heard from 
one State that is looking at SNAP employment in training 
dollars, one of the States that was awarded those extra dollars 
from last year. They are looking at whether or not they can 
take families who actually transition off of cash assistance 
because they are employed, but following them because 
oftentimes they remain for a period of time receiving SNAP 
assistance.
    So they are employed, receiving SNAP assistance and can 
they receive that continued case management that is so 
important to progressing through the job career pathway, could 
we tie that in? I think that is a fascinating idea, and one we 
have to watch closely as Washington is doing that.
    Chairman BOUSTANY. Ms. Reynolds.
    Ms. REYNOLDS. Great. Thank you for your question. I think 
accountability is key, and I agree with my colleagues that the 
end result needs to be focused on not the process. You know, so 
many programs that are aimed at combating social issues, infant 
mortality, financial success for families, they really measure 
indicators, you know. Instead of measuring how much we are 
reducing infant mortality, we just measure if somebody has a 
medical home and stop there, we say we want to get someone to a 
financially successful place and then we just measure if they 
have reduced their debt by 10 percent, which, if you have 
$10,000 worth of debt and you reduce it to $9,000, that is 
good, but you still have a long way to go so----
    What I would encourage is outcome measures, really. What 
the impact is we want to have would be four things: First, 
getting people into jobs. I think it is really important to get 
people working. The second would be retention, keeping those 
jobs because it is one thing, like one of our colleagues, 
Sherrie, to get a job, it is a different thing to keep a job. 
The third though, and this is where case management can come 
in, is to build skills. We know those with more education, I am 
not talking 4-year degrees even, I am talking certificate 
programs, vocation programs, we know they are less likely to be 
in poverty. So help people build skills and then eventually 
getting people to a living wage job. And I believe that those 
accountability metrics as good case management supporting 
families during those steps would be great.
    Mr. DOGGETT. Great. And I want to say as well I worked with 
Catholic Charities in San Antonio. They provided such important 
leadership on the needs of our immigrants, and the concern that 
many immigrant families, of course, we have many immigrant 
families that have American citizen children and other family 
members, and the work that I am sure you are doing in Tarrant 
County as well with our immigrant families is really important.
    Ms. REYNOLDS. Thank you.
    Mr. DOGGETT. Secretary Anderson.
    Ms. ANDERSON. Well, I am going to take a slightly different 
turn. I think we should quit treating two-parent families 
differently than we treat single-parent families, and we do 
that a lot in this program. We have done that for at least 40 
years. And I think the outcome of that is that we have more 
single-parent families than we do two-parent families. And a 
way in which we do that is around our work participation rating 
for single-parent families. So we should do all families the 
same, and eliminate the difference between the two-parent 
families. I think that would help.
    I think the other thing that would be important is at least 
within our caseload, we have people who are ready to work, they 
just need skills. We also have people who have barriers, and 
those barriers are real important. And I think for those we 
need to figure out a way for our system to be incentivized to 
move people with long-term issues into the workplace, and that 
will be structurally different than people who we can send to a 
vocational education program. I think we have to come to grips, 
we have some families that the low-skill jobs are where they 
are going to be for the long term.
    Mr. DOGGETT. Thank you.
    Mr. Cove.
    Mr. COVE. I just want to caution against us moving back 
toward the human capital approach for getting people jobs. 
Obviously, it differs from individual to individual what they 
are going to need to move them into a job and up in the job. 
But I used to argue with Senator Moynihan about this until he 
finally said to me, you are right, work first works better, 
then education and training and classrooms. And yes, education 
and training is terribly important and it should be there, 
because, as I mentioned in my testimony, it goes along with the 
employer and moving that person up in that job.
    But we have to be very careful if we are going to say that 
everybody has to go into the best job possible. We have the 
earned income tax credit, we have many other supports that are 
there for individuals who are going into $9- and $10-an-hour 
jobs or even minimum wage jobs. I just want to caution, we 
don't want to go back there, and there is a tendency right now 
in this country to do that.
    Mr. DOGGETT. Thank you. Thank you, Mr. Chairman.
    Chairman BOUSTANY. No problem. Mr. Young.
    Mr. YOUNG. Well, thank you, Mr. Chairman. I open again by--
I want to tell Ms. Smoot how much her testimony affected me, it 
was gripping, it was touching. The level of motivation required 
to navigate this complex system that you had to deal with, it 
is very impressive that you persevered. Your level of 
motivation ought not be necessary in order to end up as one of 
the success stories.
    In that sense, and because of the amount of time it took 
you to finally find a job that you saw offered a path forward, 
offered you a wage that made sense for you and your family, 
offered you opportunity and hope, in that sense, we have failed 
you, and so allow me to apologize as well and dedicate myself 
here today to trying to improve things however I can.
    You did everything right. You listened to the experts. You 
took responsibility for actions, by your testimony and all 
accounts, and you played by the rules. So, clearly, we need to 
change some of those rules. And so, just thank you for being 
here very much. Impressive.
    Ms. SMOOT. You are welcome.
    Mr. YOUNG. Ms. Anderson, I would like to go back to the GAO 
report that our Ranking Member referenced in his opening 
remarks, highlighting the fact that the TANF program lacks 
incentives for large numbers of State and local TANF agencies 
to adopt and test promising approaches to help TANF cash 
assistance recipients gain employment. So it is a lack of 
incentives for these State and local agencies; that is the 
heart of the problem.
    What might policymakers do to encourage more innovation 
within the TANF program and evaluation at the State and local 
levels to help more of these recipients attain jobs, attain 
employment, retain those jobs, develop more skills, and 
ultimately move themselves and their family out of poverty?
    Ms. ANDERSON. Well, for me, we have a focus on work and 
skill development. They are not separate; they are together. 
You work.
    So the way you are structured now is that the incentives 
are not to get people out of the program and into a job. You 
don't get any credit for that. You are getting credit for if I 
hold onto you in some way and support that.
    We went to a pay-for-performance system, and we did two 
things. We looked at our food stamp population and said who 
were the people in there who were not in our program, and we 
went after them, so everybody thought we lost our minds. But we 
dropped our caseload because we have pay-for-performance 
systems and we pay our contractors to perform. You don't do the 
same thing for us.
    In fact, if you look at the work participation rate failure 
across the country, the reason why people are failing for those 
States who are trying to get people jobs, they don't get credit 
for it. So if you just back up and start giving us incentives 
for putting people in jobs, I think you would have a complete 
turnaround.
    Mr. YOUNG. Thank you. Thank you. So the focus on work and 
making sure that we have the outcomes right and we are 
rewarding the outcomes.
    Ms. ANDERSON. Yeah. And there are a couple of things. You 
know, a lot of people go to work, but they still need a little 
help.
    Mr. YOUNG. Right.
    Ms. ANDERSON. But if we put them in a job where they don't 
need a subsidy and we still help them, the States get no 
incentive for that. And we view that when we put a person in a 
job and they come back to the agency like America Works and 
America Works is helping them to retain the job and then go up 
in the job, there is no credit for the State for that.
    Mr. YOUNG. Thank you.
    So, with roughly 1 minute left, I am going to give Ms. 
Reynolds an opportunity to take a crack at how we incentivize 
States, localities to be a bit more creative, to try new 
things, and then to evaluate those outcomes so that we all 
might learn from their best practices.
    Ms. REYNOLDS. Yeah. I agree with a lot of what my colleague 
said. I feel like the Federal Government should hold the States 
accountable for outcomes, and those outcomes need to tie to job 
retention and then ultimately a career ladder where they are 
able to move from minimum wage to a little higher wage to 
ultimately living-wage employment based on geography as well as 
family composition.
    Mr. YOUNG. Okay. Thanks.
    I yield back.
    Chairman BOUSTANY. I thank the gentleman.
    Mrs. Noem, you are recognized.
    Mrs. NOEM. Thank you, Mr. Chairman.
    Ms. Pavetti, I was very interested in your testimony 
because it was news to me that a lot of States aren't utilizing 
a lot of their TANF dollars for workforce development. And I 
tend to be a person who usually sides on the side of the 
argument to give the States flexibility. So you give them block 
grants, you give them dollars to meet the needs that they have, 
because not every State is the same and not every population is 
the same; therefore, they can be more flexible and meet the 
needs of their people.
    But if the States are making decisions that aren't 
investing in making sure that people can provide for their 
families and have a better future, then I think we have a real 
problem. And so I guess I would like to have you weigh in a 
little bit.
    I come from South Dakota, so we have a very unique 
situation in that we have a very low unemployment rate. In 
fact, there are towns that have 15,000 to 25,000 people in them 
that have 1,500 to 2,000 open jobs. They are begging for people 
to move there and to work these jobs, and they will pay to 
train them to do that.
    So if anybody wants to move to South Dakota, it is cold, 
but we will take you.
    But we also have some Native American tribes that are the 
poorest in the Nation that have 90 percent unemployment. They 
are very isolated. They are in parts of the country that 
finding them a job would be extremely difficult. So we want 
programs to work for them and to give them skills and create 
economic development where it is needed, as well.
    I guess I would like you to speak a little bit to, do you 
believe that the Congress should place some requirements on the 
States to invest in increasing workforce participation? And how 
do you see that coming down? What would be the best way to do 
that, while still maintaining some flexibility for the States 
to meet the needs of their people?
    Ms. PAVETTI. I think if you don't mandate it States won't 
do it.
    Mrs. NOEM. Why do you think that is? That seems to me----
    Ms. PAVETTI. I think there are two reasons why States spend 
as little as they do on work and related programs.
    One is because they serve very few people in TANF to start 
with. And the incentives are they get a caseload reduction 
credit, so if their caseload goes down, they have to put fewer 
people in work. So they don't need to spend it if they don't 
serve people. So there is that incentive.
    And then the other incentive is that they can use the money 
to fill other budget holes. And we see States increasingly, and 
particularly when they have constraints, they are shortening 
time limits, they are even serving fewer people, so they can 
move those resources to fill other things that the State would 
have paid for otherwise.
    So there are lots of, sort of, incentives for States not to 
serve.
    Mrs. NOEM. So you are saying they could move those dollars 
to----
    Ms. PAVETTI. They can move them to pretty much----
    Mrs. NOEM [continuing]. Early childhood development, things 
like that----
    Ms. PAVETTI. Exactly.
    Mrs. NOEM [continuing]. And that that is happening.
    Is there a State out there that you can think of that is 
making the correct decisions?
    Ms. PAVETTI. Well, I think States are--well, I will just 
tell you, I have the data for South Dakota.
    Mrs. NOEM. Oh, that is great.
    Ms. PAVETTI. Even though South Dakota, actually--South 
Dakota spends twice the share of dollars on work than the 
national average. So, even though they are a small State, they 
are actually investing.
    I think there are States that are--the States are all over 
the map.
    Mrs. NOEM. Yeah.
    Ms. PAVETTI. So I don't think there is one State that 
points--some States are spending a lot on childcare; some 
States are spending none on childcare. But I think there isn't 
a message that says that work is what we want these dollars to 
go to.
    So I think the way to actually make it happen is to have 
States be required to increase over time so they get to some 
point, so that you begin to, sort of, have those investments, 
to incentivize States that actually spend it, that they may be 
the ones that get the incentives.
    And then the other piece, I think, is I really do think, if 
we maintain penalties, that is a problem, because what you do 
is you have States that don't meet the work requirement and 
then you take money out so they have even less requirement. So 
one thing could be to have States be required to spend more on 
work so that they begin to meet those metrics.
    So I think that I wouldn't want to keep the work 
participation requirement, whatever that metric is. I think 
there are lots of different ways in which you could begin to 
incentivize States to have them move in that direction and 
spend more on work. And I think part of it has to be serving 
people who are in need----
    Mrs. NOEM. Yeah.
    Ms. PAVETTI [continuing]. So that you can't, sort of, just 
have States not serving anyone.
    Mrs. NOEM. Ms. Anderson, could you weigh in on this a 
little bit? You spoke about incentivizing States to make the 
correct decisions. When they get more people in the workforce, 
in a long-term job situation, is there a way you think we can 
incentivize States to do that, as well?
    Ms. ANDERSON. Well, I think you have to reward work. I 
mean, to me, it is pretty simple. We reward States' efforts in 
getting people jobs. People go where the incentives are. A 
human animal is a pretty simple animal, you know. This is where 
the fruit is, that is where we are going to go.
    Mrs. NOEM. Uh-huh.
    Ms. ANDERSON. And so the way in which TANF is structured 
now, that is not where the fruit is. The fruit is someplace 
else.
    Mrs. NOEM. Is there another program that does that that we 
could use as an example?
    Ms. ANDERSON. I think the child support program actually 
does that. I mean, it is kind of strange that that would be the 
program, but the incentive system is around what the Federal 
Government says it wants, and that is where the incentives are, 
and that is what they pay for. And over in the collections 
part, where everybody is struggling, is where the most 
incentives are.
    And so I think it is a good model for you to decide what 
your goals are, and then that is what you pay for. But paying 
for process, you need to stop that.
    Mrs. NOEM. Okay.
    Ms. ANDERSON. And the work participation rate is paying for 
process.
    Mrs. NOEM. Appreciate it.
    I am out of time. Thank you, Mr. Chairman.
    Chairman BOUSTANY. I thank the gentlelady.
    Mr. Davis, you are recognized.
    Mr. DAVIS. Thank you very much, Mr. Chairman.
    And I thank all of the witnesses for their testimonies and 
for being here.
    Mr. Cove, you have put a lot of emphasis on getting a job 
and that that is what agencies are supposed to be able to do. 
And you also emphasized that your agency has been quite 
successful in terms of the numbers of jobs that you have been 
able to direct or acquire for people.
    What percentage of those would you say were livable jobs, 
jobs that approach where Ms. Smoot might be?
    Mr. COVE. The average wage at America Works, across the 
board, has been over $10 an hour. That includes, obviously, as 
I mentioned before, other supports that the government 
provides.
    Obviously, depending on what city you are in or what State, 
that may or may not be fully a livable wage. But it may well 
move you quickly, if things are organized properly, into what 
you would consider a living wage.
    But I do consider work, any work, better than sitting home. 
And it is more money than sitting home.
    Mr. DAVIS. I certainly agree that it is more money than no 
money.
    Mr. COVE. Or than welfare.
    Mr. DAVIS. And better than welfare.
    So you are saying that, if the person is earning, say, $10 
an hour and there are some other supplements that they might be 
able to require, that they can feel better about themselves in 
terms of what they are contributing to self-sufficiency and 
well-being and moving on.
    Mr. COVE. Well, without question. And I think we heard that 
testimony a few minutes ago. The children of the parents that 
go out and start working are really affected by this, as is the 
person themselves in terms of their self-esteem.
    I really do believe any job is better than no job. And I 
understand there are problems in various communities with, 
quote, ``a living wage,'' but we can't solve everything. And 
the first thing I think we have to solve--and we have been 
talking about this in this panel--is how do you get the States 
incentivized in a way so that they get people working.
    There are other issues, as well, but I am not sure I can 
take care of that.
    Mr. DAVIS. Ms. Smoot, I think all of us are indeed 
impressed with your success and what you have been able to do. 
What would you say exactly that TANF did for you?
    Ms. SMOOT. Basically, TANF just provided something, as far 
as me doing for my kids and for things for me to buy in the 
household. I couldn't afford a home, could hardly afford food 
until I got SNAP. That is about it. That is all I could really 
afford--get personal things, as far as the house, as far as 
taking care of the kids, as far as healthwise or any conditions 
in the home.
    Mr. DAVIS. During the process, did that give you some of 
the energy that you needed, some of the hope that you needed, 
some of what you needed to keep moving?
    Ms. SMOOT. Well, it provided me transportation to go look 
for jobs. That, and for my kids to maybe eat at school when 
they couldn't afford the food, as far as--I mean, sometimes 
they had the programs where you can get free food at school, 
but--it was mainly nothing, as far as trying to survive in the 
home.
    I mean, look at the houses that they--condos are going up. 
They are running in the 200s, 300s for sale. And then other 
homes you rent, they are $1,500, $1,600 a month. I mean, no one 
on TANF can afford that. Not even if you are making $10 an 
hour, you still can't afford that. The money I am making right 
now, I can't afford that.
    So, money-wise, if you really want to be stable or 
comfortable, you have to be making at least $50,000 a year. If 
you want to be stable, about $30,000 a year. But that still is 
not going to get you off TANF.
    If you want to get off TANF and stay off TANF to do on your 
own or for your kids or see your kids see you thriving and they 
want to do it, too, instead of them falling back on TANF--
because my mom, she was on it. And I didn't see much of any 
good job where it was as though she could take care of me and 
my brothers. And it was just her. She couldn't afford it.
    And I am looking--my kids look at me, and they see that I 
couldn't do it, and they are going to try to do for themselves 
before they can even try to think about TANF.
    So, to get off of it, I say $15, $16 an hour, but if you 
want to be comfortable, it is $50,000. I mean, these 
companies--I am thinking the companies today, some of them, 
they are not hiring permanently. They are hiring temporary. 
And, as you see, just about my whole life was temporary 
positions. That is the only way I could get experience. There 
were no stable positions, no permanent ones, because they 
weren't hiring for us. And basically they are still not. I am 
on a contract. I am not on a permanent roll.
    And I am still trying to strive for it today. I am not 
looking back on TANF, no. I am not looking back. I am looking 
forward. I am trying to move up to own my own home, where my 
kids can do the same thing.
    And my kids are now about to be successful because I picked 
myself up. I didn't want them to see me keep struggling along 
with them on my back, just keep it moving and keep it moving 
with them on my back. No, I wanted to keep it moving so they 
can go ahead, go before me, run for the stars. You shoot, you 
go ahead. I want you up there.
    So I got up. America Works helped. Veterans Group helped. 
And I still say, if you want to get off TANF, that is the only 
way to go.
    Mr. DAVIS. And I think you make a great case for job 
creation as being one of the great needs of our country. Thank 
you very much.
    Secretary Anderson, when we talk about flexibility and 
providing more flexibility for States, what are we talking 
about?
    Ms. ANDERSON. Well, I guess the first thing I can say is 
that, for Wisconsin, I don't think we are like Ms. Pavetti's 
States that she is looking at, because we don't want children 
in poverty, and so we do everything we can to make sure that 
parents have opportunities for work.
    For us, what we need from you--and I have to now speak for 
Wisconsin--what we need from you is the ability for you to put 
some incentives in front of us so that when we put a person to 
work--and we do that a lot--that that is what we get credit 
for.
    And the way we have tried to structure our programs is to 
do--we try to reward work, and, because these are family 
programs, we try to supplement childcare, because these are 
people with children. So we do that.
    But there is another piece that we keep continually not 
wanting to look at that we need flexibility around, and that is 
that we want the fathers to be able to be incentivized to work, 
as well. Because when we get a dad paying child support and a 
mom working, we are putting income in that family that will 
help that family. So it is a two-parent thing; both of them 
need to be working.
    And when you give us flexibility around that two-parent 
family, all family issues, we can start putting more and more 
fathers to work even if they are not in the home. And that is 
important. We cannot forget fathers are important to the well-
being of their children. And we need more flexibility around 
allowing fathers to participate in the work programs and have 
the same kind of services that the mothers have.
    Mr. DAVIS. And I am so delighted to hear you say that, 
because it seems to me that when we strengthen and enable the 
father, even though he may not be physically in the home, that 
you are actually strengthening the family and you are dealing 
with it as a family unit.
    And I really appreciate that perspective, because we try to 
work a great deal with fatherhood. And we have something called 
a fatherhood initiative, where some focus is put on those 
individuals and the roles that they play.
    Ms. Reynolds, if I could just----
    Chairman BOUSTANY. Well, the gentleman's time has expired. 
I want to get to the others----
    Mr. DAVIS. Okay.
    Chairman BOUSTANY [continuing]. Because we are going to 
have votes coming up, too.
    Mr. DAVIS. All right. Thank you very much, Mr. Chairman.
    Chairman BOUSTANY. I thank the gentleman.
    Mr. DAVIS. I yield back.
    Chairman BOUSTANY. Mr. Holding.
    Mr. HOLDING. Thank you, Mr. Chairman.
    Mr. Cove, if you could take a minute and sketch out for me 
how it would have been different had Ms. Smoot met you on day 
one of entering into, you know, this maze. How would it have 
been different under your program?
    Mr. COVE. Well, let me tell you why it would have been 
different first. The reason it would have been different is 
that we are--and I am going to sound like a broken record, but 
we are only paid if we get her a job and she stays in that job. 
Otherwise, I go out of business. And we do quite well as a 
company, and we do quite well because we quickly move people 
into the jobs and give them the help that they need to stay in 
the jobs, which is a terribly important thing. That point has 
been made by others here, as well.
    We focus hard on moving the person quickly and attaching 
them quickly to the labor market----
    Mr. HOLDING. Give me some specifics, just, you know, how 
your program works.
    Mr. COVE. Sure.
    Mr. HOLDING. I mean, just tick through it.
    Mr. COVE. First, the person gets assessed, and we get a 
sense of what their strengths are.
    Second, during that period of time, we have a very hard-
nosed, hard-hitting sales force. Think of us as, like, 
Manpower, Inc., or Kelly or whatever. We have salespeople--we 
don't have job developers--we have salespeople who go out into 
the community, and they sell to companies and say, ``We are 
going to get you someone who you are going to want to keep, and 
we are going to reduce your turnover. You are not going to do 
us any favors or the person any favors. You are going to do 
yourself a favor by hiring a person who we get to you.'' And 
that makes a significant difference.
    We then have what we call corporate representatives who are 
available to the individual if they get into any issues that 
are in the way of work. I call it the static in their lives----
    Mr. HOLDING. So transportation issues or childcare.
    Mr. COVE. Exactly. All of those things. So, if the person 
is a good worker, we try to put a protective cocoon around them 
so that they are prepared to stay in the job and handle the 
things that maybe they wouldn't have been able to handle 
without us.
    So you have this assessment of a person's strengths--and, 
by the way, you will hear a lot about barriers to employment. I 
just don't believe in it. I mean, of course there are people 
that have certain things that will keep them from certain jobs 
and certain things that might ultimately keep them from going 
to work. But, if you start with the issue that people have 
barriers, let's see what the barriers are and let's get rid of 
those barriers, you don't get people into work.
    About 20 percent of this country are working alcoholics. If 
a person came in to me and I knew that they were an alcoholic 
and I didn't place them and I said, ``You have to go into an 
alcoholic treatment program,'' we would lose 10 to 20 percent 
of our working population here.
    We have to be very careful. You don't know what barrier is 
going to get in the way. And that is why we have these 
corporate representatives, so when something does pop up, we 
are there to help.
    And I don't mean to sound naive. Of course, someone comes 
in with a drug issue, we make sure that person goes into a drug 
treatment program. But it is a drug treatment program where 
they can work. And then we make sure that they continue in that 
drug treatment program.
    Mr. HOLDING. So if a person comes to you and they have very 
few skills and you are not able to get them a job, I mean, what 
happens then?
    Mr. COVE. They have very few skills?
    Mr. HOLDING. Very few skills, and it just doesn't--you are 
not able to find them a job.
    Mr. COVE. Well, let me give you something that might seem 
counterintuitive.
    We place thousands of ex-offenders in jobs. Many or most of 
them don't have high school degrees, don't have hard skills. 
You know where we place a lot of them? Customer service, 
because they are very good at BS. And you put them behind a 
phone, and they can sell someone in South Dakota a 
refrigerator. They are amazing. It is backroom, so they don't 
have to interact with other people; you know, we are not 
worried about them getting in trouble. And they are highly 
successful doing that.
    That is only one example. I could give you others, but that 
is an example.
    Mr. HOLDING. Good. Thank you very much.
    Mr. COVE. You are welcome.
    Mr. HOLDING. Mr. Chairman, I yield back.
    Chairman BOUSTANY. I thank the gentleman.
    Mr. Smith.
    Mr. SMITH. Thank you, Mr. Chairman.
    I want to thank each and every one of you for your 
testimony.
    Ms. Smoot, I have to tell you, I very much appreciate your 
testimony and listening to your questions and your responses. 
You have been a blessing--a blessing to this Committee and a 
blessing for me to sit here and hear your story.
    And all that I can keep thinking over and over when you say 
that you want your kids to do better and that you are going to 
do better, you are the American Dream. You are what everyone 
strives for. And they will do better, and you will continue to 
do better. And I think that is a lot of hope and inspiration 
for myself and for so many people.
    If you would talk to my grandparents, who none are alive 
today, they would tell you that they were all in poverty and 
now their grandson is a Member of Congress. They never had the 
opportunity to live and see that.
    But I have to tell you, they will do better. Who knows--you 
know, the U.S. Marshal or whatever job--they could be a Member 
of Congress. And you have made a big step today. And I just 
want to say thank you for that, for myself.
    Mr. Cove, I have a couple questions from the perspective, 
looking at the State of Missouri, where I am from. The general 
assembly just passed a piece of legislation that would change 
the TANF benefits because the scorecards have shown that they 
have rated F's in managing the programs and not really having a 
work requirement in receiving TANF benefits. And this would 
require a work benefit. It also would shorten the length of 
time from, I think, 60 months to 30 months.
    The Governor vetoed it today, so now it has been sent back 
to the general assembly to either override it or to change it.
    What are your thoughts on the work activity? I mean, do you 
think it is extremely important to have work activity tied to 
TANF, or--I would assume it is, but do you see a great 
advantage?
    Mr. COVE. I think what has been mentioned is there is, as 
my wife calls it--she is the CEO; she just had to leave--
``administrivia.'' There is an awful lot of work that has to be 
done to show that people are there and that they are 
participating. I think that needs to be simplified.
    I think, again, the effort has to be to look at whether the 
person is going into a job and getting a job. That, to me, is 
what is important. And, as Eloise said, incentivizing States to 
do that is, to me, so terribly important. And, again, 
incentivizing the delivery of these services through pay-for-
performance is terribly important, as well.
    So I think you are going to have to look carefully at that. 
The participation rate issue is a serious issue.
    Mr. SMITH. Ms. Anderson, what are your thoughts?
    Ms. ANDERSON. Well, I am just going to be repeating. 
Incentivize work. Treat us the way we in our State treat our 
contractors. We pay for performance, and they deliver. Pay us 
for performance, and we will deliver.
    When you set out the performance criteria, it is hard to do 
something else, because it is--this is what you want, either we 
do it or we don't, and if we don't, we don't get paid for it, 
and if we do, we get paid for it. I think that is simple. And I 
think it is simple for you; it is simple for us. We spend a lot 
less work and time on administrative stuff, and we spend much 
more of our time on actually getting people jobs.
    And what will happen is that--when I look at this system, 
in some places I don't see much change from the old AFDC 
program. Because a lot of the pieces in it, a lot of the 
structure in it are carryovers. And I want to get rid of the 
carryovers.
    Make this a pay-for-performance system, and I think you 
will see the States deliver.
    Mr. SMITH. Is there anything else any of you would like 
to-- 
Ms. Reynolds.
    Ms. REYNOLDS. We just cannot stop at getting a job, though. 
We have to work to move people to get skills, while they are 
working and respect the dignity of work, but we have to move 
them across the finish line. Because we have seen it time and 
time again in our community, throughout the Nation, you get 
people employed, you support them a little, then you back off 
because you have your next client coming through the door, and 
then they cycle back into crisis. And so we need to make sure 
we move people across the finish line into that living-wage 
job.
    In addition, if you just look at the economics of this, 
often what you will find is that people on TANF aren't just 
getting TANF. They are getting food stamps, they are getting 
public housing, they are getting a multitude of other benefits. 
And sometimes working a minimum-wage job or a $9-an-hour job, 
depending on family composition, it is cheaper for them to--it 
is more economically sensible for them to live on all kinds of 
welfare programs.
    And so what we have to do is support people across that 
finish line. Otherwise, we are disincentivizing people to ever 
get out of poverty.
    Chairman BOUSTANY. The gentleman yields back.
    Next, we will go to Mr. Dold.
    Mr. DOLD. Thank you, Mr. Chairman.
    And I also want to echo my thanks to all of you for your 
testimony, for taking your time to come and help us understand 
what is going on.
    And, Ms. Smoot, I particularly want to thank you for 
sharing your story.
    And I would like to start with you, if I may, because you 
have an interesting perspective that I think most don't have, 
in terms of actually understanding, going through these 
different programs, many of which didn't work.
    Can you tell us from that perspective, kind of, what didn't 
work and what would you have liked to have seen differently? We 
know that, obviously, when you came to see Mr. Cove that things 
started to work, but before then?
    Ms. SMOOT. Well, before, I didn't have the education. My 
obtaining my bachelor's degree, that was one. Having 
certifications and experience in what I have now, that is 
number two. And no other programs provided that. When I was in 
America Works, they enrolled me in Veterans Group, where I 
received my certifications.
    And now I am doing everything I love, as far as all the 
education I have. I mean, the bachelor's degree was in computer 
information systems, which is IT, the certifications are IT----
    Mr. DOLD. Right.
    Ms. SMOOT [continuing]. And now I am in the IT field. So I 
am feeling, if anybody wants to do something they like doing, 
they have to get those skills and those certifications to do 
it.
    Mr. DOLD. Well, and you are a testament to being--you know, 
your perseverance, as well. But I think your point also goes to 
what Ms. Pavetti said earlier in terms of just the percentage 
of what people are putting--or what some organizations are 
putting toward work.
    And I think you had mentioned it was 8 percent?
    Ms. PAVETTI. It is 8 percent nationally.
    Mr. DOLD. What do you think that the number should be, in 
terms of the emphasis for organizations?
    Ms. PAVETTI. That is a hard one. I mean, I think that there 
is such a, sort of, wide range, that I think what we want to do 
is to figure out a way to gradually increase it so that people 
are spending more. But, again, I agree with Eloise that you 
have to incentivize States to focus on getting people jobs and 
paying for those results. So I don't think just spending the 
money is what you want.
    Although I do think that one thing that is important is 
that there is no real correlation between how much a State 
spends and their work participation rates. So some States don't 
spend much because they don't have anybody on TANF.
    Mr. DOLD. And I also think one of the big problems that we 
see is that a one-size-fits-all mentality----
    Ms. PAVETTI. Exactly.
    Mr. DOLD [continuing]. From the government is oftentimes 
the response coming from Washington, and that really doesn't 
work.
    Ms. PAVETTI. Right. And I think that paying for results, 
though--then you allow States to use the strategies that work 
in their communities. If it is a Native American community, 
that is going to be different than an urban area.
    And so, if you are paying for the end result, you want to 
take into account the employment situation and the differences 
there. But, again, if you are paying for results, you allow 
States that flexibility, that they can do things differently if 
that is what they choose to do.
    Mr. DOLD. What would you say--because there are those that 
would say, listen, there are those who just need help and they 
are not going to be able to find a job and we need to make sure 
they do it, we just need to make sure we help them.
    What are your claims--Ms. Reynolds, what would you say to 
someone that says, listen, we just can't do that?
    Ms. REYNOLDS. Yeah. I think you have to look at poverty in 
several different ways. You have to look at it from a 
situational poverty situation. Somebody comes through your 
doors, you know, has run on hard times, and you just have to 
give them a little bit of intervention and support to get them 
back on their feet.
    You have folks in generational poverty, you know, families 
who have not seen anything different, not seen mom or dad go to 
work in the morning, who have been on welfare for generations. 
And so those folks, again, work, same as with situational 
folks.
    But then there is a group who will always be in chronic 
poverty and, because of mental abilities, disabilities, several 
things like that, may not have the ability to work.
    I think the most important thing is we figure out in all 
groups how they can contribute to society, depending on what 
level of contribution folks can make based on their individual 
circumstances.
    Mr. DOLD. Well, and I think in your opening statement you 
were talking about individualization, so----
    Ms. REYNOLDS. Absolutely.
    Mr. DOLD [continuing]. How do we target programs for the 
individual as opposed to, ``This is what you might fit into''?
    Ms. REYNOLDS. Right. Right.
    Mr. DOLD. Can you talk to me a little bit more about that 
and what you are doing to----
    Ms. REYNOLDS. Absolutely.
    So, like, for example, in our organization, we will have a 
focus on pulling families out of poverty. And what we mean by 
``out of poverty'' is a living wage, 3 months of living-wage 
savings, so if they fall on hard times they still have some 
savings in order, no government or charity assistance needed, 
as well as appropriate levels of debt. So that is the end goal. 
That is what we are trying to accomplish. That is the result we 
intend to have.
    But then what we do is we sit down, we thoroughly assess 
what is going on in that family's life. We understand what 
their strengths are so we can build on those strengths that the 
family has. And then we will work on a customizable plan for 
that family.
    And we are aggressive about it. You know, in one of our 
services, we are saying--you know, every 7 days we are having 
contact with our family, and every 21 days they are making 
progress on their individual goals. And we are sticking with 
them for a long period of time. People do not often move out of 
poverty in 6 to 12 months. People move out of poverty in 
usually about 18 to 36 months because they need to get a skill 
to get to a wage where they can support their family.
    Mr. DOLD. Well, I certainly hope that we can focus on what 
unites us. And I know that we can all agree that we want to get 
people out of poverty into work, where they can support 
themselves and have better opportunities for their children.
    Mr. Chairman, my time has expired.
    But, again, I want to just thank you all for your testimony 
and for what you are doing out in the workforce. Thank you.
    Chairman BOUSTANY. I thank the gentleman.
    We will go now to Mr. Meehan.
    Mr. MEEHAN. Thank you, Mr. Chairman.
    And thanks to each and every one of you for the work that 
you are putting into this very, very important area and making 
the difference in so many families' lives.
    But it is a complex situation, including--we are often 
dealing with families, and you sort of identified it, in a 
particular context. There are a lot of other factors that play 
in. I saw a lot of transients when I was a prosecutor dealing 
with families' movement, other kinds of factors.
    How do you deal--you have a flexible program, but you have 
these other elements that are part of the family circumstance. 
Some may be of their control, some beyond their control.
    Ms. Reynolds, you have impressed me not just with your 
enthusiasm but this idea of working through to a point, staying 
with them. So how do you accommodate these various stages in 
which a lot of curve balls can be thrown in the process?
    Ms. REYNOLDS. It is not easy, and it is complex; there is 
no doubt about it. But there are a variety of interventions.
    Number one, it is about engagement. It is about, from the 
moment you meet a family that you are serving, starting to meet 
their basic need, because if someone does not have a roof over 
their head or wonders where their next meal is coming from, 
they are not thinking about self-sufficiency. And so, first of 
all, it is meeting a client where they are at.
    But, second of all, it is instilling hope in them, giving a 
picture of a tomorrow and what life could look like----
    Mr. MEEHAN. I don't want to interrupt your----
    Ms. REYNOLDS. Yes?
    Mr. MEEHAN [continuing]. Answer, but let me ask: Are you 
getting--because one of the things that Ms. Pavetti and I think 
Ms. Wareing and some others have said, we want to reward 
success and progress. But are there abilities to be able to 
measure those things? Are we giving you the capacity to be able 
to measure that as a success? Or are some people going to say, 
well, it has been 9 months and, you know, you are still dealing 
with hope, we still haven't gotten them to work?
    Ms. REYNOLDS. I don't think the Federal Government needs to 
measure if we are creating hope or if they are engaged. I think 
that gets into the very problem of all these indicators and no 
end result. I think the end result needs to say what folks are 
saying: jobs, and I would argue living-wage jobs, as the ending 
point.
    But I would say, we know on the ground that if you do not 
have engagement, if you don't create hope, if you don't take a 
client where they are at and move them step by step by step and 
help support them, bring out their individual strengths and 
what is going on in their family--they are survivors--how you 
move them forward, I don't think you all need to be involved in 
those metrics and measuring. I think the end result needs to 
remain on jobs. It is our work to make sure we get clients 
across that finish line.
    Mr. MEEHAN. Can any of the panel say their followup on that 
thinking?
    Or, as well, sometimes we often hear--and there was 
testimony already that there is a variety of other programs out 
there, competing programs, and the families often qualify for 
multiple things simultaneously. How do you deal with the 
variety of programs being out there together?
    Ms. Wareing, you are raising your hand.
    And is there a way for us to get to a point in which none 
of the programs are so completely needed?
    Ms. WAREING. Yeah, I think we have a huge opportunity, Mr. 
Meehan, to align our programs. And it is not that those other 
programs are always out of line. They can be very important and 
supportive. I think the notion about how much we spend on work 
in the States has to also look at what that spending on work 
supports, like childcare. So someone can't go to a job if they 
have a young child and don't have support, knowing what 
childcare costs, to have some subsidy supports for that.
    But the biggest opportunity I see right now is one that 
Congress put before us last year, which is we reauthorized the 
Workforce Investment and Opportunities Act. And one of the 
things you all did was say TANF should be a mandatory partner. 
Now, States can opt out, but TANF can be a mandatory partner.
    And that means looking at the entire workforce engagement 
system, how all those supports work together, and thinking 
about how other supports--TANF should be short-term, TANF 
subsidy and cash assistance should be short-term--help someone 
so that their kids have food on the table and they can pay 
their bills, and get to the place where then we have moved 
someone into a job, into a job that has progression, into a job 
with a living wage, and then we have to have a mechanism by 
which those other supports slowly scale down.
    And our end game is someone is employed with a living wage 
and not on government support. And I think all of us agree that 
has to be what we are aiming for.
    Mr. MEEHAN. Ms. Pavetti.
    Ms. PAVETTI. I just would like to make one comment, that I 
think it is important to recognize that there is this huge 
diversity of people who are receiving TANF as well as other 
public benefits, and their ability to move into work is varied. 
And I think what Heather said about really thinking about what 
contribution can people make--it is not always going to be 
work. It is not always going to be work at 40 hours, 20 hours.
    So I think we have to recognize there are families who have 
extreme limitations and that we need to think about what is the 
support we provide for them so that their kids always have some 
basic level of support, a roof over their head, and food. They 
need to be able to provide for them.
    So I think we need to be thinking of the diversity and 
moving people as far as they can go. But I think that if we 
assume everybody can go to work, we are fooling ourselves. 
There aren't enough jobs in every place, and there are also 
some people who have just very significant issues.
    Mr. MEEHAN. Can you quantify success, though, in that 
category? Because you were saying, ``Pay us for success.''
    Ms. PAVETTI. Right. And I think you are not going to have 
success with everybody, but I think success will be different 
for different people. So, again, I think what you want is to 
aim for work and get as close as you can, but recognize that 
for some people they may not be able to sustain work all the 
time.
    There was a program in Chicago called Project Match. What 
they did was they created jobs that were 10 hours a week, where 
they paid people stipends to be part of their communities so 
that they were making a contribution. I think we have to be 
thinking about what can we do to create opportunities for 
people to be part of their communities, where they feel like 
they are making a contribution, if they can't sustain, sort of, 
being in the regular labor market.
    That is going to be a small group of people, but we can't 
leave them behind. We have to make sure that we have a safety 
net and a way to help that group of people, as well.
    Mr. MEEHAN. Well, thanks, each and every one of you, for 
your insights.
    Well, Mr. Chairman, my time is up, but there is a--one of 
the panelists wants to----
    Chairman BOUSTANY. Yeah, that is fine.
    Mr. MEEHAN [continuing]. Have testimony.
    Ms. ANDERSON. Yeah, I just have to step in on this one.
    The mentally ill and people with physical disabilities need 
to be not looked at as people who can't work. They can work. 
Every morning, I see people come into our garage at our work 
going to work who have some serious disabilities.
    We may need to think about having both rehab and TANF do 
more collaborative work. Goodwill has done an excellent job at 
putting people to work. So I don't like hearing people can't go 
to work.
    One of the things that got me started in this work was a 
person walking in--wheelchairing himself into my office, with 
no ability to use his hands, he had to use a pencil in his 
mouth, saying, ``I want a job.'' That did it for me. If 
somebody can come in my office with nothing going for him in 
terms of physical capability saying, ``I want a job, and I want 
to work,'' we need to throw this notion out of our heads that 
people with mental disabilities and physical disabilities 
cannot work.
    There are jobs out there for them, and we have a lot of 
agencies that prove that. So I don't--I don't like hearing 
that. I get very upset----
    Ms. PAVETTI. Can----
    Ms. ANDERSON [continuing]. Because, when you are in the 
workforce, however you are in it, you are part of the 
community. And we have to quit isolating people and making them 
less than human. And, in our society, the first thing we ask 
people when we go to parties or whatever we do is, what do you 
do? We don't even ask you what your name is. So let's not 
isolate people.
    Ms. PAVETTI. Can I just----
    Ms. ANDERSON. I am sorry, but that is my soapbox for today.
    Ms. PAVETTI. Can I just make one quick clarification?
    I think that we need to just sort of--I don't disagree that 
people can work, but I think the evidence of what we can do is 
quite limited, and we need to accept that there are alternative 
pathways.
    New York City did an experiment, at one point, where they 
took the group of people with the most significant barriers to 
employment and put them in a special program where they 
provided very significant resources and really tried to move 
them on a path to work. And they did have an increase in the 
number of people who went to work, but, in the end, they got 
about a third of that group of people into jobs. So we have a 
long way to go to learn how do we get people into jobs who have 
those barriers.
    So I agree that we should believe that everybody can work, 
but I think the reality of what we have been able to accomplish 
is different than getting everyone in. So I think that we 
can't, sort of, assume that we have the answers, because we 
don't.
    Chairman BOUSTANY. Mr. Cove.
    Mr. COVE. I want you to understand that what you are 
hearing here are two very different ways of approaching the 
world.
    Part of what you are hearing is what we had before TANF, 
which was, there are lots of people who are broken, there are 
lots of people who need a lot of services. And you know what 
happened with that? No one went to work.
    What you want now is you want to recognize that that may 
exist but not start from the position that the barriers are 
there. You have to start from the position that everyone can go 
to work and then deal with those who turn out they cannot work. 
But if you start with the other position, you are going to end 
up where we were before TANF.
    Thank you, Mr. Chairman.
    Chairman BOUSTANY. Thank you. That is a very great closing 
argument on all of this.
    I want to thank all of you. This was really compelling 
testimony, very helpful to us, as we are trying to shed light 
on this fundamental issue on how can we improve the TANF 
program and get individuals and families back into the work 
world and escape poverty. And I think your testimony was very 
important in shedding light on that and helping us to 
understand what steps we need to take. I think you all did a 
terrific job, so I want to say thank you.
    And, with that, we will conclude the hearing. This hearing 
is adjourned.
    [Whereupon, at 5:03 p.m., the Subcommittee was adjourned.]
    [Submissions for the Record follow:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
                                  [all]
</pre></body></html>
